<html>
<title> - EXAMINING THE SYRIAN HUMANITARIAN CRISIS FROM THE GROUND (PART I)</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


               EXAMINING THE SYRIAN HUMANITARIAN CRISIS 
                       FROM THE GROUND (PART I)

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 8, 2015

                               __________

                           Serial No. 114-114

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       
                               ___________
                               
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE
96-909PDF                   WASHINGTON : 2015                     

                    
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f6918699b6958385829e939a86d895999bd8">[email&#160;protected]</a>  
                     
                      
                      
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Bernice Romero, senior director, Humanitarian Public Policy 
  and Advocacy, Save the Children................................     8
Mr. Mark C. Smith, senior director, Humanitarian and Emergency 
  Affairs, World Vision..........................................    17
Mr. David Ray, vice president for advocacy, Cooperative for 
  Assistance and Relief Everywhere...............................    26
Mr. Michael Bowers, vice president, Humanitarian Leadership and 
  Response, Mercy Corps..........................................    36

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Bernice Romero: Prepared statement...........................    11
Mr. Mark C. Smith: Prepared statement............................    19
Mr. David Ray: Prepared statement................................    28
Mr. Michael Bowers: Prepared statement...........................    39

                                APPENDIX

Hearing notice...................................................    58
Hearing minutes..................................................    59
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Subcommittee on the 
  Middle East and North Africa:
  Statement submitted by Syrian NGO Alliance.....................    60
  Statement submitted by Human Rights First......................    63

 
   EXAMINING THE SYRIAN HUMANITARIAN CRISIS FROM THE GROUND (PART I)

                              ----------                              


                       THURSDAY, OCTOBER 8, 2015

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:30 a.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. I am 
sure that some members will come, it is just that we have to 
end before noon because we have an important, on the GOP side 
an important event. So we will make sure that we end on time. 
Look at that. I just bang the gavel and things happen.
    So the subcommittee is in order, and after recognizing 
myself and my good friend the ranking member Ted Deutch of 
Florida for 5 minutes each for our opening statements, I will 
then recognize any other members seeking recognition for 1 
minute. We will then hear from our witnesses--thank you, ladies 
and gentlemen--and without objection, your prepared statements 
will be made a part of the record. Members may have 5 days in 
which to insert statements and questions for the record, 
subject to the length and limitations in the rules.
    The chair now recognizes herself for 5 minutes. Since the 
beginning of last Congress, this is the sixth time that our 
subcommittee has convened to look specifically at the 
humanitarian crisis in Syria. I am grateful that we are 
welcoming back some of those organizations that testified 
before us last year and welcoming one new one, and we thank all 
of you for your work under these very difficult circumstances.
    While the news about Syria today is dominated by 
geopolitics or the U.S. domestic political ramifications of the 
latest Russian air strikes against anti-Assad rebels, or the 
strain faced by EU countries because of the hundreds of 
thousands of mostly Syrian refugees flowing across their 
borders, I think it is important to remember that the Syrian 
crisis did not come about just a few days ago. We now have at 
the very least 25 million people who are going through 
unimaginable pain and suffering in their lives, lives that have 
been absolutely turned upside down in the past few years.
    For years this subcommittee has been advocating for a 
comprehensive strategy toward the Syrian humanitarian crisis. 
Even though recent news headlines focus on the amount of 
refugees that are heading to Europe, we cannot forget about the 
millions of refugees who remain in the Middle East. Internally, 
7.6 million Syrians have been displaced. What a number. At 
least 4.1 million have fled abroad to Syria's neighbors, 
especially Turkey, Lebanon, Jordan, Iraq and Egypt.
    The U.N. High Commissioner for Refugees has called the 
combined situations in Syria and Iraq a mega-crisis, one in 
which over 25 million people have been affected by the violence 
and brutality of Bashar al-Assad and ISIL. At least 16 million 
Syrians including refugees registered abroad are in need of 
humanitarian assistance, and combined with the over 300,000 
people already dead it is fair to say that in Syria we may be 
witnessing one of the largest humanitarian disasters of our 
modern times.
    The best and only surefire way to end the internal 
suffering and its external consequences, like the refugee 
crisis, is to put an end to the conflict in Syria and remove 
Assad from power. In the meantime, the United States will 
continue to try to improve the ability of those on the ground 
to deliver aid through both security and diplomatic solutions, 
and build the capacity of our partners in those suffering 
communities to respond on their own.
    The United States has already met the humanitarian crisis 
with a tremendous response, donating over $4.5 billion in aid 
since the conflict in Syria began seriously 4 years ago. 
However, there are many questions that need to be answered 
about the efficacy and the continuity of our aid and the 
monitoring capacities and the capabilities of our implementing 
partners, the lack of assistance being provided by others in 
the region and elsewhere.
    I remain concerned that despite the large amounts of aid 
and resources being donated, very little of our assistance is 
reaching those desperately in need. In our February hearing on 
the humanitarian crisis, the administration testified that at 
that time 72 percent of our $3 billion in aid was going through 
the U.N. We must ensure that there are sufficient monitoring 
capabilities in place to prevent fraud or corruption and to 
ensure that aid is not being diverted or falling into the hands 
of ISIL, the Assad regime or other terrorist groups.
    I am also concerned about the ability of NGOs to access 
those in need when faced with a dangerous situation on the 
ground in Syria. Humanitarian workers must be allowed to reach 
those who are suffering without fear of retaliation. We must 
also not accept the arguments of some who contend that Russian 
and Iranian involvement will be beneficial to the humanitarian 
response. Nothing good will come out of Russian and Iranian 
involvement in Syria.
    This will be the first time in over a year that the 
subcommittee has heard from NGOs and our implementing partners 
operating on the ground in Syria, and I am grateful that they 
have come here today to share their perspectives and to provide 
suggestions on how we can better respond to this, sadly, ever-
growing humanitarian tragedy.
    And I am very pleased to turn to my ranking member, Ted 
Deutch.
    Mr. Deutch. Thank you, Chairman Ros-Lehtinen. This is now 
the sixth hearing that the subcommittee has held focused 
specifically on the humanitarian aspect of the Syrian crisis. 
In addition, we have held numerous hearings on U.S. policy 
toward Syria, but here we are 4\1/2\ years after the start of 
the Syrian conflict having the same conversation. The 
humanitarian crisis facing Syria is enormous and the entire 
international community must do more.
    On September 21, the United States announced an additional 
commitment for this year of $419 million in humanitarian aid, 
bringing the U.S. aid for 2015 to $1.6 billion for a total of 
$4\1/2\ billion since the crisis began. The 2015 U.N. appeal 
for this humanitarian crisis stands at $8.4 billion. Even with 
the additional U.S. pledge, the appeal remains only 38 percent 
funded, and the failure of other countries to satisfy their 
pledges is unacceptable.
    It is unacceptable that aid pledges continue to fall well 
short of the U.N. appeal. It is unacceptable that food aid is 
repeatedly temporarily suspended or reduced until new funding 
comes in. It is unacceptable that there aren't enough funds to 
ensure refugees and internally displaced persons have the most 
basic needs to survive winter.
    At each one of these hearings I repeat the numbers of those 
affected by this crisis because they are truly staggering. We 
must remember that these are not just statistics. They are 
children desperate to go back to school, young adults looking 
for opportunity, mothers and fathers trying to find safety for 
their families. There are over 12 million people in need of aid 
in Syria. There are 7.6 million internally displaced people, 50 
percent of them are children. Fifty percent. This year alone, 
1.2 million people have been displaced.
    Syria's neighbors are suffering under the tremendous strain 
of over 4 million refugees. Jordan now has 639,000 registered 
refugees. Over a quarter of Lebanon's population are refugees. 
That is 1.1 million people. There are nearly 2 million refugees 
in Turkey and Iraq. Now dealing with 3.2 million of its own 
people internally displaced by ISIS violence, it is also 
shouldering \1/4\ million Syrian refugees.
    And now we are seeing hundreds of thousands making the 
perilous trip to Europe in search of security and opportunity. 
The U.N. High Commissioner for Refugees has estimated that 
322,000 people have fled to Europe. The U.N. issued a funding 
appeal to aid refugees arriving in Europe, and while the 
refugee crisis in Europe demands international attention we 
cannot allow it to take the international community's focus 
away from the crisis that is happening on the ground in Syria.
    Today's hearing is not the venue for debate over U.S. 
policy toward Syria, but let me just say that until we address 
the root of this conflict, which is the continued brutality of 
the murderous Assad regime and the horrific ISIS, the 
humanitarian crisis will continue. It is because Assad chose to 
attack his own people that space was created for extremist 
groups to rise. Now this region has been fundamentally altered 
for decades to come. The future of an entire generation of 
Syrian children could be lost in this conflict.
    We know that billions of dollars have been flowing to bad 
actors on both sides of this conflict. Wealthy individuals from 
Gulf countries funded extremist groups like al-Nusra from the 
earliest stages. Media reports have estimated that Iran has 
given Assad $9 billion in financial support, while Assad regime 
officials publicly stated that they have received $15 billion. 
Russia continues to provide billion-dollar arm sales and other 
materiel and financial support to Assad, yet it has contributed 
only $6 million this year for the humanitarian appeal.
    Billions of dollars have gone to perpetuate this conflict. 
The U.N. cannot even sustain funding for the most basic 
programs like providing food vouchers. This is unacceptable. 
Funding is unfortunately just one of the challenges. Protection 
for civilian aid workers must be a priority. Indiscriminate 
weapons like barrel bombs and chemical weapons are not designed 
to target a strategic position, they are designed to kill as 
many people as possible.
    And while the vast majority of attacks on civilians come 
from the Syrian army, ISIS violence, coalition strikes and 
Russian strikes have all caused civilian casualties. Russia's 
decision to launch air strikes in Syria reminds the 
international community this conflict is far from over. In 
fact, on October 2, the U.N. Special Envoy for Syria stated 
that the U.N. would have to suspend certain humanitarian 
interventions due to a surge in violence. U.N. Security Council 
resolutions on the use of indiscriminate weapons must be 
enforced.
    The war in Syria is difficult, it is ugly, and this focus 
of this hearing on this humanitarian crisis must continue even 
as we debate the violence. And it is also time that we have a 
serious discussion on the feasibility of operating safe zones 
to protect innocent civilians. In addition, we can't turn our 
back on host communities. This means continued and increased 
funding for schools, infrastructure support, water and 
sanitation projects, health care programs, and providing 
refugees with the ability to work and contribute in these 
communities.
    We are fortunate today to be joined by four organizations 
that have been on the ground working in and around Syria 
witnessing firsthand the difficulties of addressing this 
particular humanitarian challenge. Our brave aid workers, 
particularly those Syrians still working inside Syria, our 
extreme gratitude for risking their lives every single day to 
make the otherwise unbearable lives of others a little bit 
better.
    And finally, Madam Chairman, in reading through today's 
testimony I was struck by the personal stories that each of you 
told of individuals deeply affected by this crisis. We must 
continue to put a face on this tragedy to remind the world that 
the cost of continued inaction is simply too great.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch, very eloquent. 
Thank you. Mr. Rohrabacher.
    Mr. Rohrabacher. We Americans come from every place in the 
world. We are every ethnic group, every race, every religion, 
and we have a very special role to play when there are crises 
like this. And I am anxious to work with all of my colleagues 
on both sides of the aisle to make sure that we thwart this 
horrible genocide that is going on now in that part of the 
world, but also to reach out to these poor people who are 
suffering and try to get through this crisis together.
    Thank you for your leadership, Madam Chairman, and I 
appreciate my colleagues on the other side of the aisle and 
their good faith in this as well.
    Ms. Ros-Lehtinen. Thank you, Mr. Rohrabacher. Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman. And welcome to our 
panel and thank you for the brave work your organizations are 
doing every day. We are facing a humanitarian crisis of 
unprecedented proportion. I know we say that every time there 
is a humanitarian crisis, but the virtual dismemberment of a 
state, and a big one at that--Syria--is pretty much 
unprecedented. And the numbers are staggering--1.7 million 
refugees in Lebanon, a country of only 4.5 million. And in 
Jordan Syrian refugees now equal 10 percent of its population. 
Turkey, with almost 2 million Syrian refugees and not getting 
quite as much credit, frankly, as it deserves for that effort.
    We need to step up. We need our allies to step up. We need 
the Gulf state oil-rich nations to step up to this tragedy 
while we try as an international community to find a long term 
solution so that we stop generating refugees. I look forward to 
the hearing. Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly. Mr. Trott.
    Mr. Trott. I would like to thank Chairwoman Ros-Lehtinen 
and Ranking Member Deutch for holding this important and 
especially timely hearing. Earlier this morning ISIS released a 
video of the beheading of three Assyrians from a village they 
captured in February of this year, and ISIS is now threatening 
to behead three more people.
    The humanitarian crisis in Syria is getting worse by the 
day, and the repeated delays by the administration whether it 
be taking 9 months to name an Ambassador for International 
Religious Freedom or over 1 year to appoint a special envoy for 
religious minorities in the Middle East has only exacerbated 
the dire situation in Syria and the greater Middle East.
    The frequency of attacks on Christians and other religious 
minorities is extremely disturbing. The attacks are not on just 
innocent helpless citizens but an attack on Christianity and 
other minority groups as a whole. Christians are under a 
distinctive threat in the Middle East especially in war-torn 
countries like Syria and Iraq where they have faced decades of 
persecution, some of it state sponsored, rendering them 
powerless and helpless. The administration needs to take the 
lead and show the rest of the world that we stand with the 
world's most vulnerable. I yield back my time.
    Ms. Ros-Lehtinen. Thank you, Mr. Trott. Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chair, and thank you to you 
and Ranking Member Deutch for calling this very important 
hearing. Welcome to our witnesses. Thank you for being here, 
and more importantly, thank you for the important work that you 
are doing.
    The situation in Syria and the surrounding areas has become 
a tragedy of epic proportions, and I fear it will be a source 
of shame on our generation that we have not done more to 
prevent the human suffering which is at a scale that we haven't 
seen in decades. Responsibility certainly does not fall 
entirely on the United States. It is the responsibility of the 
entire international community to respond to the humanitarian 
crisis that is unfolding today.
    And it is appalling to me that funding needs continue to be 
unmet; that the United States and Europe are not doing more to 
accept desperate refugees who have lost everything they have in 
the world and that entire families are dying in their attempts 
to escape their bleak reality and the horrifying consequences 
of war. Of course the ultimate responsibility falls upon the 
Syrian regime of Bashar al-Assad whose unspeakable cruelty 
toward his own people including the use of chemical weapons is 
at the heart of this civil war.
    This is not a problem that has an easy solution, but I hope 
today we can shed some light on what more the United States 
Government can do to ease the suffering of the Assyrian people 
and attempt to bring an end to this horrific conflict. I thank 
the witnesses again for being here, and thank you, Madam Chair. 
I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline. Mr. Chabot.
    Mr. Chabot. Thank you, Madam Chairman for holding this, I 
think, very important hearing. Since the start of the Syrian 
civil war, hundreds of thousands of people have fled taking 
refuge in neighboring countries. And while the international 
community has launched a massive response to the crisis, there 
is significant shortcomings and the political landscape is 
obviously extremely complicated.
    We continue to deal with the brutal Assad regime and an 
unstable Iraq plagued by ISIS and what seems to be a 
disappearing border between Syria and Iraq. These tragic 
realities have caused an overwhelming migration of refugees 
fleeing to Europe and elsewhere. But I think we would be remiss 
if we didn't acknowledge that the administration's policies in 
the Middle East and particularly with respect to Syria have 
been in a shambles. So many mistakes have been made from 
drawing red lines and not following up on them to considering 
ISIS to be the JV team. One mistake after another and a lot of 
people are suffering as a result of those mistakes. I yield 
back.
    Ms. Ros-Lehtinen. Thank you, sir. Ms. Frankel.
    Ms. Frankel. Thank you, Madam Chair. First, I want to just 
thank the folks here, the panel, for all the work you are 
doing. I know I speak for so many Americans and people around 
the world to say that when we see what is going on in Syria it 
is heartbreaking. And it is also very complicated.
    I am not going to sit here--I respectfully differ a little 
bit with some of my colleagues' statements about--I don't think 
we should be putting the blame on Barack Obama, but what I do 
want to say is I think what is going on requires an 
international focus. This is a humanitarian and a security 
problem now that is facing the world, and I look forward to 
hearing what you all have to say today.
    Ms. Ros-Lehtinen. Thank you, ma'am. Mr. Clawson.
    Mr. Clawson. Thank you all for coming and full appreciation 
for what your organizations do in unimaginable circumstances. 
That is the first thing I wanted to say. Number two is I am 
against U.S. involvement in Syria under the current strategy, 
voted against arming folks there with taxpayer money, and 
offered an amendment to stop it because I think the United 
States is making the situation in Syria worse as opposed to 
better, which makes your job harder.
    And the third point I have to make today is that the 
wealthy friends and neighbors in the neighborhood are not doing 
nearly enough, not just militarily but more importantly, today, 
to help folks like you get aid to people that are suffering for 
no acts of their own but rather the conflicts that are 
occurring.
    So those are three points I wanted to make today, and the 
first one of appreciation, of course, is the most important. 
Thank you for what you all do. I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Clawson. Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chair, and just thank you 
very much to the panel. Save the Children, World Vision, 
Cooperative for Assistance and Relief Everywhere, and Mercy 
Corps just doing extraordinary work on behalf of a 
compassionate nation, and these groups are so desperately 
needed today. You have a civil war that has killed over 220,000 
people, created 4 million refugees, 7 million internally 
displaced, 12 million inside Syria need humanitarian 
assistance. This is extraordinary and extraordinarily difficult 
to try to distill down to a policy that we can help enact that 
will help relieve this problem. So I look forward to hearing 
from the panel, and again we thank you for the extraordinary 
work that you do and the extraordinary work that you will 
continue to do on behalf of the entire world community. I yield 
back.
    Ms. Ros-Lehtinen. Thank you. And Ms. Meng.
    Ms. Meng. Thank you, Madam Chair and Ranking Member, for 
calling this hearing to examine the Syrian humanitarian crisis 
composed of refugees and displaced families in the surrounding 
areas. I too especially want to thank the eight organizations 
who are represented here today for your challenging work on the 
ground. It is through your capability and willingness to put 
yourself in harm's way to help people that this assistance is 
able to be delivered at all.
    With the exacerbating conflict and regional actors 
disagreeing on the best policies to address the root causes, we 
must focus on addressing humanitarian needs at this moment, 
specifically what best practices are and where there are gaps 
to accessing and delivering aid and where NGOs and governments 
can collaborate to effectively mitigate the effects of the 
crisis. Thank you, and I look forward to hearing from your 
expertise.
    Ms. Ros-Lehtinen. Thank you very much, Ms. Meng. Now I am 
pleased to introduce our panelists. First we are pleased to 
welcome back Ms. Bernice Romero who is the senior director of 
International Humanitarian Response, Public Policy and Advocacy 
at Save the Children USA. Previously, Bernice has been a 
director for Oxfam International and an aide to former 
President Oscar Arias of Costa Rica.
    Secondly, we welcome Mr. Mark Smith of World Vision, where 
he serves as senior director of Humanitarian and Emergency 
Operations. He has served as a senior strategist for the 
development department of the American Red Cross and disaster 
response director for World Relief.
    Third, we welcome Mr. David Ray who is the vice president 
for advocacy at CARE USA and a managing director at CARE Action 
Now. He has had 19 years of experience with CARE, serving as a 
senior assistant to the president for CARE International and 
vice president of the Care Foundation. Welcome, sir.
    And last but certainly not least, we welcome Mr. Michael 
Bowers of Mercy Corps where he serves as the vice president for 
Humanitarian Leadership and Response. Previously he has served 
as Mercy Corps country director in Afghanistan, Albania, 
Croatia and Kyrgyzstan. He has also performed work in West 
Africa as part of the National Democratic Institute.
    Thank you all for being here. Your statements, as I said, 
will be made a part of the record. Please feel free to 
summarize your remarks. We will begin with Ms. Romero. Thank 
you.

STATEMENT OF MS. BERNICE ROMERO, SENIOR DIRECTOR, HUMANITARIAN 
         PUBLIC POLICY AND ADVOCACY, SAVE THE CHILDREN

    Ms. Romero. First of all, I want to thank Chairman Ros-
Lehtinen and Ranking Member Deutch for this hearing, and the 
time and attention that you continue to dedicate to this 
crisis. It is much appreciated.
    A single picture of a lifeless child focused the world's 
attention on a crisis that has reached not just Europe but all 
of Syria and its neighboring countries. Now in its fifth year 
and with no political solution in sight, the Syrian conflict 
has been characterized as the largest humanitarian crisis in 
the world.
    Save the Children programs are serving millions of people 
across the Middle East, reaching over 2 million children since 
the conflict began. My remarks today, a summary submitted for 
the record, draw on this experience to focus on four issues. 
One, the importance----
    Ms. Ros-Lehtinen. Just to interrupt you.
    Ms. Romero. Yes.
    Ms. Ros-Lehtinen. I noticed that we have some great slides 
here. I don't want this to count against your time, but do you 
want these slides to be seen by the audience also? I don't know 
what----
    Ms. Romero. That would be great, yes.
    Ms. Ros-Lehtinen. It would be great if we could get one of 
them in one of the screens. There we go, okay.
    Ms. Romero. All right, great. Thank you.
    Ms. Ros-Lehtinen. Thank you. We will start again.
    Ms. Romero. Okay.
    Ms. Ros-Lehtinen. Start that clock again. Thank you.
    Ms. Romero. Okay. I am going to draw on this experience in 
Syria to focus on four issues. One, the importance of 
increasing the annual ceiling for refugee admissions; two, the 
protection challenges Syrian children face including attacks on 
schools; three, the importance of humanitarian and development 
funding; and four, the need to take action now to find a 
political solution.
    The Syrian conflict has taken a heavy toll on children, 
many who have fled bombs, bullets and torture only to drown in 
European waters. More than 4 million refugees, over half of 
whom are children, have fled the violence in Syria. Given the 
scale of this crisis, the U.S. must be better than business as 
usual. The recent announcement to increase the refugee 
admissions cap is a welcome step, but more is needed. Save the 
Children is calling on the U.S. to resettle 100,000 Syrian 
refugees and raise the overall cap to 200,000 in the next 
fiscal year.
    We know that unless we address why people are taking such 
desperate measures, however, people will continue to flee. One 
factor is the growing insecurity inside Syria including 
increased attacks on education. Over the last 2 years, Save the 
Children has recorded 51 incidents of attacks on and military 
use of schools supported by our programs in Syria. These 
included 32 air strikes, arson, forced entry, shootings and 
threats. The actual number of cases is likely much higher.
    One example occurred in April when a barrel bomb damaged a 
primary school in Aleppo, forcing 700 children to be evacuated. 
Last year, three schools we support in Idlib were so severely 
damaged that they had to be rebuilt. You can see a picture of 
one of these schools here. This school was attacked and bombed 
three times until it was finally deemed unsafe and could no 
longer be used.
    In another incident, one student suffered severe injuries 
and lost his hand. Two missiles fell on the school, one killing 
five children and injuring 50 more. More than 1,000 schools 
inside Syria have been used as temporary bases, military 
staging grounds, or detention and torture centers. At a time 
when there are already limited opportunities to access 
education in Syria, such damage further hampers students' 
prospects.
    Despite the challenges, with the appropriate investments it 
is still possible to deliver education in Syria. Targeted 
funding can allow education to continue. However, it must be 
accompanied by increased pressure on parties to the conflict to 
cease attacks on education.
    We call on the U.S. Government to pressure parties to the 
conflict to fully implement the U.N. Resolutions 2139, 2165 and 
2191; support the establishment of a U.N. protection monitoring 
body; prioritize and fully fund education including alternative 
schooling options.
    At the same time as insecurity is rising inside Syria, the 
situation in host communities is deteriorating. Host countries 
continue to show extraordinary generosity but are at a breaking 
point. Many borders are effectively closed and refugees now 
find it harder than ever to renew residency visas or 
registration. Limited legal status leads to reduced access to 
basic services, assistance and livelihoods. Unable to access 
legal income, many turn to work in the informal economy often 
risking abuse and contributing to social tensions.
    Education is also at risk. More than 700,000 refugee 
children are out of school because national education systems 
just can't cope with the numbers. Legal restrictions, decreased 
assistance, all of these heighten child protection risks. 
Families are increasingly forced to rely on negative coping 
mechanisms such as child labor or early marriage.
    For both children's protection and host country stability, 
we urge the U.S. Government to work with host countries and 
develop an agenda that combines humanitarian and development 
support, and we also ask the U.S. Government to champion the No 
Lost Generation Initiative, a campaign to channel support for 
children's education and protection. The U.S. has been a 
generous donor, but in the face of ever-increasing needs this 
leadership must continue, including support for quality 
education and employment. We ask Congress to pass a Fiscal Year 
2016 emergency supplemental for humanitarian assistance and 
increased refugee admissions.
    But ultimately, ending the conflict is the only way to 
build a better future. The U.S. should prioritize a 
reinvigorated peace process. We laud you as to leadership, but 
the scale of the crisis demands more urgent and escalated 
action. We look forward to working with you to help Syria's 
next generation.
    [The prepared statement of Ms. Romero follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                  ----------                              

    Ms. Ros-Lehtinen. Thank you very much for what you do.
    Mr. Smith.

 STATEMENT OF MR. MARK C. SMITH, SENIOR DIRECTOR, HUMANITARIAN 
              AND EMERGENCY AFFAIRS, WORLD VISION

    Mr. Smith. Chairman Ros-Lehtinen, Ranking Member Deutch, 
the face of the Syrian crisis has become Aylan Kurdi, the 3-
year-old boy who washed up on the shore of Turkey. It was an 
image that shocked all of us. The face of the Syria crisis is 
also Ali, a 14-year-old Syrian boy now living in Lebanon. Ali 
fled the war in Syria with his mother and his two brothers; he 
has now dropped out of World Vision's education program in 
Lebanon. Ali is now working three jobs, at a library, an 
exchange office, and charcoal shop to help support his family. 
He told our staff, I may die tomorrow or the day after. I can't 
dream of a future.
    Madam Chair, these children don't expect to live long. 
Since World Vision focuses on specialized programming for 
children, today I will highlight the particular needs and 
vulnerabilities of children affected by the conflict. Across 
the region over 2 million Syrian children have crossed borders 
and now live as refugees in Lebanon, Turkey, Jordan, Egypt and 
Iraq.
    And the life as a refugee is very difficult for a child. 
Fathers and mothers are daily making decisions about whether or 
not to put their families in a dinghy to cross the 
Mediterranean; whether or not to have their children leave 
school in order to work; whether or not they should agree to 
early marriages for their daughters because it is less mouths 
to feed.
    Quite alarmingly, the specific needs of Syrian children are 
largely not being addressed within the humanitarian response. 
In World Vision's office in Jordan, pictures drawn by Syrian 
refugee children line our hallways. Their colored pictures are 
heartbreaking, portraying destruction of homes, bloodshed and 
violence. One showed a child in the corner of the picture 
silently witnessing the horror.
    These children need mental health care and psychosocial 
support in order to process their traumatic experiences. Not 
addressing emotional impact and stress children have 
experienced could lead to a generation of children experiencing 
long term mental, social and economic problems. Further, the 
crisis has had a devastating impact on the education of 
millions of children.
    Before the onset of the conflict in 2011, nearly every 
child in Syria was enrolled in school and literacy rates 
exceeded 90 percent. Today, inside Syria 2.7 million children 
are no longer in school, outside of Syria over 50 percent of 
school-age refugee children are out of school. Rather than 
gaining an education, the crisis continues to push large 
numbers of Syrian children into the labor market. Refugee 
children working to support their families are even more 
vulnerable to exploitation and abuse.
    In light of this, it pains me to see the varying degrees of 
negative sentiment against Syrian refugees. Our response toward 
Syrian families forced out of the country by conflict will 
define what we stand for as a nation. We can act out of fear 
toward Syrians who flee the war or we can show compassion to 
those who seek refuge. I believe we are a country that 
continually shows compassion.
    World Vision has been greatly encouraged by the response to 
our refugee initiative, a long term campaign to engage the 
Christian Church and the American public inspiring people to 
take action in these places of brokenness and human suffering. 
In the last 4 weeks we have raised nearly $3 million from over 
11,200 donors across the country. In addition, Nielsen recently 
conducted a recent poll on behalf of World Vision surveying 
2,000 U.S. adults. Eighty-three percent believe the U.S. should 
in some way assist persons affected by the conflict in Syria. 
Further, when engaging with our supporters, World Vision 
receives extremely high responses from our Syria advocacy calls 
to action. They want to see leadership from President Obama and 
Congress on the conflict in Syria. President Obama and Congress 
now face a unique moment where their moral leadership will be 
tested.
    The urgency of the Syrian humanitarian crisis threatens the 
stability of the region. It is ground zero for a global proxy 
war where the primary casualties are innocent children in and 
around Syria. Our policy recommendations include civilian 
protection. We need a Syrian policy that at its core has 
civilian protection.
    A political solution--the costs of U.N. inaction around 
civilian protection in Syria are now becoming clear. The U.S. 
must politically and diplomatically prioritize an urgent and 
structured process toward a peaceful solution. Third, education 
in psychosocial support. Unfortunately, children's programs for 
child protection education and psychosocial support remain some 
of the most underfunded areas of the response. We need to 
prioritize these programs for children.
    Third, livelihoods. Invest in key economic sectors in host 
countries and incentivize livelihood programming to increase 
employment opportunities. And finally, humanitarian response 
fund raising.
    In conclusion, the war haunts an entire generation of 
Syria's children. Every single child in Syria today under the 
age of eight only knows life impacted by war. This crisis is 
shaping an entire generation of children. The threat of aerial 
attacks on schools and homes shapes them. The loss of their 
fathers, mothers, siblings, cousins and friends shapes them. 
The threat of displacement from home shapes them. The reality 
of not having enough food shapes them. The reality of not 
having warm clothing and blankets during winter shapes them.
    I would like to thank the committee for inviting World 
Vision to testify and for your work on this Syrian humanitarian 
crisis.
    [The prepared statement of Mr. Smith follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Ms. Ros-Lehtinen. Thank you for everything that you do, Mr. 
Smith. Thank you.
    Mr. Ray.

   STATEMENT OF MR. DAVID RAY, VICE PRESIDENT FOR ADVOCACY, 
        COOPERATIVE FOR ASSISTANCE AND RELIEF EVERYWHERE

    Mr. Ray. Chairman Ros-Lehtinen and Ranking Member Deutch, 
members of the committee, thank you for your continued 
engagement on this issue. As noted, I am here representing CARE 
USA, a 70-year-old global poverty fighting organization working 
in more than 80 countries around the world including more than 
six decades in the Middle East.
    To begin, let me tell you about a woman I will call 
Nasreet. Nasreet and her family spent a year fleeing from one 
place to another inside Syria before finding refuge in a town 
across the border in Jordan. When explaining the reason for 
fleeing her homeland, she raised her 6-year-old son's shirt 
exposing a jagged scar from the shrapnel that had torn through 
his body and destroyed their home.
    What choice did I have but to leave, she said. Now her 
oldest sons, ages 9 and 13, who had never missed a day of 
school in Syria, are forced to forego the education they so 
desperately desire in order to work full time to provide enough 
money for their family to survive.
    Sadly, her story is typical of the millions who are 
displaced by this conflict. CARE has been responding to the 
Syrian crisis since June 2012. With the help of the U.S. 
Government, private donors and other bilateral and multilateral 
agencies, we have helped nearly 1.3 million Syrian refugees and 
IDPs in Jordan, Lebanon, Turkey, Egypt and Syria. Our programs 
provide food, hygiene items, psychological and social support, 
and vouchers and/or debit cards that help refugees cover basic 
living costs such as food and rent.
    We are also working to meet the unique needs of women and 
girls. Sixty percent of all preventable maternal deaths occur 
in conflict, displacement, and natural disaster settings like 
those currently faced by millions of Syrians. The provision of 
adequate maternal and child health services in these 
circumstances is critical. But none of these efforts are enough 
to meet the urgent humanitarian needs of the Syrian people.
    Based on our experience I would like to offer five 
recommendations. One, urgently increase assistance to Syrian 
refugees and those displaced inside the country. Two, increase 
protection of civilians inside Syria and in the region. Three, 
immediately expand resettlement of vulnerable Syrians to the 
United States. Four, ensure that women have access to jobs and 
income generating opportunities. And five, dramatically 
increase U.S. Government diplomatic efforts to end the war.
    CARE's recommendations are detailed in our written 
testimony, so in the interest of time I will focus on just 
three of them. First, we must increase humanitarian assistance. 
The United States has been the single most generous donor to 
date, providing $4.5 billion to the humanitarian response. That 
is in large part due to congressional support for this and 
other humanitarian crises, and we thank you.
    And yet, the U.N.'s 2015 appeal is only 41 percent funded, 
and the Governments of Jordan, Turkey and Lebanon are 
struggling to respond to this protracted crisis. In addition, 
the World Food Program assistance to extremely vulnerable 
refugees has been cut in half. America can and must do more to 
address these desperate needs. The $1 billion emergency 
supplemental introduced by Senators Graham and Leahy on Tuesday 
is a very welcome development, and we hope that the House will 
follow suit.
    Second, we must increase protection of civilians both 
inside Syria and in the region. One of the main drivers of 
refugee flows has been the indiscriminate attacks on civilians. 
Unless U.N. Security Council resolutions calling for an end to 
such attacks, including barrel bombing, are backed up with real 
and serious consequences, the parties will continue to ignore 
them.
    We also must remember that women and girls face particular 
protection challenges in any crisis and Syria is no different. 
Inside Syria the war has increased the levels of domestic 
violence faced by women as well as early marriage among girls. 
According to a report released by CARE earlier this year, child 
marriages among Syrians in Jordan have increased dramatically 
to as high as 25 percent. The United States must ensure that 
the protection and health needs of women and girls are included 
in all of its assistance provided in the region.
    Third, we must ensure that women have the opportunity to 
support themselves. One of the factors forcing Syrians to make 
the difficult decision to leave for Europe is that they are 
unable to legally work, particularly in Jordan and Lebanon. 
While we recognize that this is politically complicated, the 
U.S. Government should work with host countries to allow 
refugees to legally work. With as many as 28 percent of Syrian 
refugee households headed by women, it is particularly 
important to focus on their needs.
    I urge Congress to seize this moment of heightened 
attention for the plight of Syrian refugees to push for a 
lasting political solution so that millions of innocent Syrians 
can return to their homes and we can turn our attention to 
helping them rebuild their lives. Thank you, and I would be 
happy to answer questions.
    [The prepared statement of Mr. Ray follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, sir.
    Mr. Bowers.

 STATEMENT OF MR. MICHAEL BOWERS, VICE PRESIDENT, HUMANITARIAN 
              LEADERSHIP AND RESPONSE, MERCY CORPS

    Mr. Bowers. My colleagues are eloquent. I hope I can do 
them well. Madam Chair, Ranking Member Deutch, thank you very 
much for inviting me today to testify. Last month I spent time 
on the island of Lesbos, Greece, which serves as a way station 
for many Syrian refugees on their long journey to Europe. There 
I saw thousands of people who have risked everything they have 
to flee for their lives; the vast majority of them fleeing the 
civil war in Syria, but many of them also fleeing Syria's 
unstable neighbors.
    I am glad my colleague provided some faces of the people 
who are affected, but let me also try to provide some voice to 
the people we are encountering on this journey. ``Crossing is 
very dangerous, but we are looking for a small dream.'' This 
from a small, young Syrian boy from Hama told our team in 
Lesbos. He added that ``We had to escape. In Syria there is 
only death and killing.'' Another 14-year-old Syrian youth 
named Hammed, we met, had lost his leg when a barrel bomb fell 
into his school. Though he had already made it to Lesbos he 
wondered out loud how he would continue his journey on crutches 
all the way to Austria, his intended destination.
    Though most of the people we met in Greece were men and 
older boys sent ahead by their families to establish a base in 
Europe, women also make up this trip into fragile crafts 
crossing the Aegean. Babies just a week old or two were found 
on the beaches as well as these boys. It is something to 
highlight that the Syrians we met in Lesbos are in the minority 
though, those able to pull together the substantial resources 
required to reach the beaches of Lesbos. Many Syrians in the 
region cannot pull together that same amount of money, an 
endeavor costing many families their entire savings.
    I have also spoken with the mayor of Athens and other 
global city leaders on how ill-prepared they feel in supporting 
and accommodating thousands of migrants and refugees flowing 
into Europe. Countries neighboring Syria know this situation 
all too well as we know. Tragically, Syrians are worse off 
today than they were a year ago, whether they are in Syria or 
living in neighboring countries.
    Regional host countries that are receiving the vast 
majority of refugees face particular strain on their resources, 
as my colleagues mentioned, and as long as the war drags on we 
find more and more challenges to cope with. Humanitarian aid to 
assist those fleeing unimaginable violence in Syria is critical 
and the U.S. Government has been generous, as we have 
mentioned. Still, ending this crisis and its impact on the 
region requires more than writing checks.
    Absent a political solution in Syria, the situation will 
not abate. I cannot say without hesitation that for Mercy Corps 
and my colleague organizations, Syria is probably one of the 
most hostile and complex environments we have ever worked. It 
is an active war zone where very few areas could be described 
as safe and operations are carried out at great risk, as a 
member mentioned before.
    Yet in the face of extraordinarily difficult circumstances 
through our local partnerships with Syrian civil society 
groups, we have been able to respond to humanitarian needs at 
large of scale. In Syria, Mercy Corps is one of the largest 
providers of food assistance as well as essential supplies that 
people need to survive and maintain a modicum of dignity and 
small comfort, who are working hard to provide clean access to 
water and sanitation and to find a means to earn an income.
    These response efforts continue to be just a drop in the 
bucket, however, compared to the exponentially growing needs. 
The humanitarian community is struggling to assist hundreds of 
thousands of innocent people who need our help, and to be 
direct, the sheer number of people in need is staggering. Their 
needs grow ever greater and more desperate by the day, and 
there is still no end in sight.
    Let me quickly tell you what we are seeing on the ground. 
Protection continues to be the number one challenge facing 
Syrians who are still in the country. On a daily basis, 
civilians living outside of the area where the coalition is 
fighting ISIS face unrelenting aerial attacks including the 
threat of barrel bombs dropped by the Syrian regime.
    And we are witnessing the tragic outcomes of an entire 
generation of Syrian children and youth growing up in a war 
zone. Instead of worrying about their schoolwork, they worry 
whether their family or themselves would be killed. They are 
frustrated and isolated. Young women in particular never leave 
their homes. Young men and women both experience a sense of 
powerlessness and humiliation.
    Not surprisingly, when faced with this bleak option for 
their children, many families hazard the long and dangerous 
trip to Europe, trusting their fates to luck and smugglers in 
the absence of a legal, well-regulated path. And while many 
have left for Europe, many more have remained in Syria and the 
neighboring host countries seeking support to carve out a life 
of meaning and dignity.
    For the first time since Mercy Corps started delivering aid 
into the Aleppo Governorate 3 years ago, families we spoke to 
this week said they depend solely on our food aid. Their 
personal resources are now completely gone. Without this aid 
they would go hungry. In August alone Mercy Corps delivered 
over 3,000 tons of food to 400,000 people, and yet that is not 
enough.
    Layered on these challenges, humanitarians are grappling 
with a new development: The entry of Russia into this 
battlefield and the resulting internationalization of the armed 
conflict, which comes with higher standard for civilian 
protection as outlined in the Geneva Protocols, yet we already 
are seeing concerning reports of increased numbers of civilians 
casualties in these areas impacted by the Russian strikes. If 
this intensity of strikes continues, we will prepare for the 
possibility of significant redistribution of IDPs, internally 
displaced people.
    The largest obstacle for delivering in Syria is, of course, 
access. A July 2015 Operational Peer Review by the IASC on the 
Syria crisis responded that less than 1 percent of over 400,000 
people in besieged areas receive any kind of assistance from 
U.N. agencies, and on average only 5 percent of 4.5 million in 
hard to reach areas receive any assistance on a monthly basis.
    While the situation is bleak, there are a number of 
concrete steps that Congress can take now to help the people of 
Syria. I would like to leave the committee with just a few of 
them. First, as my colleagues said, provide adequate funding 
for humanitarian assistance and longer term needs. This month 
alone, the joint U.N. and NGO appeal in Iraq are barely funded 
at 30 and 46 percent, respectively. A few weeks ago the World 
Food Program had to unavoidably cut food aid for people in 
Jordan. It is more important than ever to shore up funding for 
these humanitarian accounts.
    Secondly, change the U.S. Government approach to assisting 
fragile states. The widespread nature of the worst refugee 
crisis since World War II should be a wake-up call. Third, 
provide conditions for the dignity of refugees in the Middle 
East, particularly by enabling them to work and access 
education by shoring up for resources for host communities. And 
then finally, as it can't be emphasized enough, the 
humanitarians are not a solution to this crisis, and I urge 
this Congress to work with the administration to seek immediate 
diplomatic assistance to end this war. Thank you. I look 
forward to your comments.
    [The prepared statement of Mr. Bowers follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you. Thank you to each and every 
one of you, and thank you for the work that you are doing. 
Because we will have to adjourn by noon, I am going to save my 
excellent questions but I am going to Mr. Rohrabacher to start.
    Mr. Rohrabacher. We have people who need clothing, 
blankets, shelter and food, and certainly Americans should be 
able to understand ordinary people who are in a desperate 
situation. I am going to give you a chance now to say something 
to the American people because the visions that they have been 
having lately have not been the ones that you are presenting 
today.
    When we see these little kids and our hearts go out, I 
mean, I have 11-year-old triplets at home and of course I 
identify with any picture of a child, any parent does. But we 
keep seeing these pictures of the migration and the people who 
are fleeing Syria as being strong young males. That is the 
image now.
    And if the American people get this, but number one if it 
is accurate, but even if it is not accurate, this will be very 
detrimental to providing the clothing, the blankets, the 
shelter and the food for the children and for people who are in 
a desperate situation. Because quite frankly we would expect 
healthy young males to be fighting for their own freedom and 
not having refuge in Jordan or someplace else. Have Jordanians 
fight against the people who would kill them.
    So I would like for you to talk to the American people now. 
When they see those men, very virile young men, especially the 
migrants in the pictures from Hungary are frankly very 
upsetting to me when you see these trainloads of young men who 
are said they are desperate refugees. So put that in 
perspective to me, and it needs to be addressed. Who wants to 
do it?
    Mr. Bowers. Thank you, Congressman. I think it is important 
to note that yes, the majority of them may be the young males 
or men in general. In fact, we think of the 400,000-plus or 
350,000-plus fleeing into Europe around 60 percent may be male. 
They could be young. We also should recognize in that 
population they are vulnerable as well. There are many 
unaccompanied minors, young males, in that group.
    The primary motive for why men are going is because they 
are seen as the primary livelihood earner, so they are seeking 
employment opportunities in Europe. They are seeking shelter 
and safety of course on the way, but they are seen as a 
remittance opportunity to bring money back into where their 
homes are or their families are, be it refugees or not. So many 
of them are seeking to go there because they want to earn an 
income, because in many of these host countries that they live 
in they are not allowed to legally work so essentially they are 
depending on our aid.
    The American people should not be frightened that there are 
young men fleeing. They should be frightened that the scope of 
the people fleeing at this point indicates we are at a tipping 
point that these Syrians and many of the migrants no longer see 
a future or hope in staying in either refugee camps or 
obviously in Syria itself. So that hopelessness is now 
encompassing their need to find a different future. Many of 
these men will try to earn an income to bring then their 
families with them, be it their wives or sisters or children 
themselves.
    I think we could also demonstrate to the American people as 
the World Vision poll would indicate that what binds us as a 
country is our compassion for those humanitarian needs and that 
people are fleeing war and they have a right to seek refuge. So 
I would argue that the American people should see not only 
faces of boys, but everyone in that spectrum and how those boys 
and men need our assistance as well.
    Mr. Smith. I would like to just add to Mr. Bowers' 
comments. When a family is in Jordan or in Lebanon and trying 
to decide who should go to Europe to kind of lead the way, are 
they going to send young women, single women? No. Are they 
going to send a mother and child? No. The most able person to 
send would be their young men. And so those are the people who 
are going first, and in many ways opening the door for the rest 
of the family to come, or as my colleague has said, earn money 
there and send it back. The families are going to send the 
least vulnerable, and so that is why you are seeing a lot of 
young men going.
    Mr. Rohrabacher. Those are some very good answers. Thank 
you. Do you have something to add?
    Ms. Romero. Yes. I would just add that it does--I agree 
with everything that has been said, and it does underscore the 
need to really work with host governments to look at the legal 
registration and the livelihoods and job opportunities for 
refugees because they are leaving Syria and neighboring 
countries out of desperation. On the one hand from Syria 
because of the violence, but from the neighboring countries 
because they can't work there.
    So initiatives particularly identifying parts of the labor 
market where there are gaps, where there are needs, existing 
work programs being built on would help address these issues.
    Mr. Rohrabacher. Well, thank you very much. And one thing 
for the record, Madam Chairman, is that for those people who 
are leaving and our refugees who are Muslims, I think that it 
is absolutely despicable that oil-rich countries like Saudi 
Arabia are not taking in more of these people as compared to 
Jordan who it is a very poor country. And so we have to work 
with the Jordanians in helping pick up the slack. Thank you 
very much.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Rohrabacher. Mr. 
Deutch is recognized.
    Mr. Deutch. Thank you, Madam Chairman. Ms. Bowers, you 
talked about an issue that I think is really important to focus 
on which is the issue of access. If all of you could speak to 
what you are hearing from your partners on the ground about 
their ability to access areas, specifically areas controlled by 
ISIS and then areas controlled by the Assad regime.
    Mr. Bowers, you gave some numbers, 5 percent of difficult 
to reach areas. If you could walk through that and if everyone 
could speak to that. And those areas that are unreachable for 
aid; that are totally unreachable at this point, if you could 
estimate how many people live within those areas who aren't 
getting any aid at all.
    Mr. Ray. I will just jump in briefly to respond to the 
question about the numbers. We have slightly different--in 
these circumstances it is always difficult to get definitive 
numbers to work with. The latest estimates I have seen in terms 
of the ability to reach people in besieged areas, areas that 
are surrounded by military and right in the middle of conflict, 
is that over the course of the summer the U.N. and its 
partners, which would include all of us, were able to reach 
only about 9 percent of people in need in those besieged areas, 
and that is only with medical services and that does not 
include food or other kinds of humanitarian needs. That figure 
goes up to about 24 percent in so-called hard to reach areas.
    I don't have a good fix on what the number of people are 
that are in those areas that are not being reached at all, but 
even in those areas and with these numbers those are obviously 
woefully low. We believe that one of the main reasons that 
those numbers are that low is because of the ongoing violence 
inflicted by both the Syrian Government on its own people 
through the use of indiscriminate weapons like barrel bombs, as 
well as obviously the brutality of ISIS. And until those issues 
are addressed it is going to continue to be extremely difficult 
for any of us to get access on any kind of consistent basis to 
those who are in greatest need.
    So I would just echo again what I said earlier. We believe 
that unless and until there are real and serious consequences 
for those who break those resolutions that those kinds of 
attacks will continue to go on.
    Mr. Bowers. If I could add, I think the difficulty too, 
roughly you could say \1/2\ million people in besieged areas at 
any one point during a month are very difficult to reach. That 
is in a population of up to 7 million internally displaced. So 
though that number sounds smaller relative to the overall need, 
again it is a significant issue in terms of how we broker or 
negotiate access into those besieged areas. The complication 
now of having Russian military involvement makes it just even 
worse. Obviously if there is a major counteroffensive going on, 
we will lose access. If roadblocks or other additional things 
are set up, those conduits we had before will be lost.
    What we don't know always scares us, and I would say what 
we definitely don't know is the level of consistency of aid in 
those areas is also an issue. So though you may get a 
distribution in one time, you may lose it the next month.
    Mr. Deutch. And if I could just ask, given the numbers you 
describe, if there were any type of safe zone created, if you 
could create one anywhere in the country in the place that 
would be the easiest--it is not easy. That is a different 
discussion. But if you could create a safe zone, how many 
people, how many lives could you save? Can you estimate that? 
How many people could have access to lifesaving aid?
    Mr. Bowers. I am going to be a little controversial and 
basically say we are troubled by safe zone policy talk. In 
theory, yes, a safe zone you could get say a governorate of 
Aleppo, maybe 200,000 if not more. But that is in theory. So 
ideally with a safe zone you obviously are neutralizing any 
aerial issues, but in addition you need to have the ability to 
control those forces on the ground. So even if you remove 
aerial issues, which is significant in this environment, you 
would need to sort of figure out how do those combatants on the 
ground react? They are not going to recognize a safe zone 
anymore than Assad perhaps would not with his aerial 
bombardment. So safe zones have to be thought of in a very, 
very careful way. I don't believe in this current context it is 
a very actionable item, frankly, given this time.
    Mr. Deutch. I would--go ahead.
    Mr. Bowers. Please.
    Mr. Deutch. Listen, that is the debate that is going on and 
I am just trying to figure out, and I get it. We call it safe 
zone but combatants won't view it that way. It would be 
difficult to maintain. I understand all that. All I am trying 
to figure out is if it could be done and if it could be done 
correctly, what is the potential impact? And I understand you 
are advising against it. I just want to know if it a plan were 
devised to do it in such a way to create a true safe zone what 
impact? Mr. Smith?
    Mr. Smith. Similar to my colleague Mr. Bowers, we have 
problems with safe zones. We do recognize that they have been 
used in the past to varying degrees of effect. In some cases 
they have gone horribly wrong and in some cases they have gone 
relatively well. We would really--I think, there are a lot of 
conditions that would need to be met before we discussed safe 
zones. And so the right to protect is something that we take 
very seriously and we do recognize that international 
humanitarian law does allow for safe zones, but in terms of the 
conditions that need to be met before we have that discussion 
they are quite lengthy. And we honestly feel that the 
diplomatic efforts in terms of trying to address this issue 
have not been exhausted and matter of fact have not really been 
vigorously pursued, and until we have exhausted that I think it 
is really difficult for us to discuss the safety zones.
    Mr. Deutch. That is a fair point and we ought to certainly 
be able to agree that it would have a dramatic impact. And we 
know what the impact would be right now if the world decided 
that we would no longer tolerate barrel bombing.
    Mr. Smith. Absolutely.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Deutch. If I could, Madam Chairman, if I could just----
    Ms. Ros-Lehtinen. Yes, without objection they would be 
entered into the record.
    Thank you so much. Mr. Trott is recognized.
    Mr. Trott. Thank you, Madam Chairman. I want to thank all 
the panelists for taking time to be here this morning. And I 
think all of you mentioned in your comments the need to end the 
conflict is a critical element, any solution, and I am just 
curious if you could get some insight on what a solution looks 
like, how we get there, particularly in light of Russia's 
involvement.
    Mr. Ray. I would say that as humanitarian organizations the 
political considerations about what kind of a solution might be 
reached are really beyond our mandate and our area of 
expertise. I would underline, however, that without a real 
concerted effort on behalf of the United States and other 
international powers there is not going to be a solution, and 
we need to see increased emphasis from our own government and 
from those in Europe in order to see any chance of a solution 
reached.
    In the meantime, there are real things that can be done to 
minimize the humanitarian consequences, and among those are the 
efforts to actually enforce the kind of resolutions that have 
been put in place to stop the kinds of indiscriminate attacks 
that are harming so many civilians. So the protection of 
civilians needs to be heightened and it needs to be given very 
serious consideration even while debate goes on about how to 
reach a negotiated settlement.
    Ms. Romero. Yes, I would add to that. I was at a discussion 
recently with a number of groups that involved some Syrian 
Americans and some Syrian groups, and consistently they said 
that they felt that the U.S. was the one government that could 
broker this by bringing together the right set of actors. And 
that really struck me, because sitting here I am like none of 
those actors like us, I thought, so I would not have jumped to 
that conclusion.
    But really that is the sense in the region. That the U.S. 
has a power of convening that has not really been effectively 
utilized, so the first thing would be to really commit to that. 
Convene the players in the surrounding region that we know are 
supporting various actors that are contributing to this 
conflict, supporting the U.N. process that is already going on. 
There is a series of working groups that the U.N. has convened 
that are working on different aspects of the conflict and of 
humanitarian assistance. Engaging with that more forcefully, I 
think would send a loud signal.
    And then as my colleague has already said, supporting some 
interim measures such as this protection mechanism that is also 
at the table at the U.N. that has been suggested, or proposed 
rather, by the French Government. Really getting some 
mechanisms on the ground to the extent that we are able to send 
a stronger message that the kind of civilian protection 
violations going on right now are not acceptable.
    Mr. Trott. Mr. Bowers, do you have any comment?
    Mr. Bowers. Yes, I would add, and respectively to the 
chair's comments, to begin with Russia and Iran do have a role 
here. It is a regional war and increasingly a global security 
threat, so you would need to look at the P5+Germany as the 
central actors to be discussing how to cease, first and 
foremost, these aerial attacks, and look for the conditions to 
create greater humanitarian access, be it call it safe zones or 
not, but that is in a comprehensive way.
    And I do think President Obama and the Europeans that are 
involved here and the P5 who need to come together and 
understand that. Now you have the G20 coming up in Turkey. Why 
there is not an opportunity to sit down and really look at 
this, I don't know. That is something that this administration 
should focus on. And Russia's recent involvement only 
highlights the need for them to be at the table to peacefully 
resolve that.
    Mr. Trott. Mr. Bowers, you mentioned in your comments that 
the U.S. needs to change its approach to fragile states. How 
would you change that approach and what steps should we 
consider here in Congress?
    Mr. Bowers. There is much more detail in my written 
testimony, but a lot of the work that we do right now of course 
as humanitarians is very short term. A lot of structural issues 
that these countries, especially host countries as well as 
Syria itself are predicated already on fragility--bad 
governance, poor infrastructure, et cetera. So the way the U.S. 
Government right now funnels assistance and humanitarian aid is 
more or less segregated. We have great difficulties working 
together to sort of bring a more holistic approach, both short 
term saving lives and livelihoods, as well as trying to address 
the sources of instability, the cycles of violence that will 
continue should and when there will be a peace.
    So both are proposals I think that our colleagues would 
support as well. Focus on enhancing humanitarian aid, but also 
looking at structural changes in how the U.S. Government 
administers aid in these fragile states.
    Ms. Ros-Lehtinen. Thank you, Mr. Trott. Thank you. Mr. 
Cicilline.
    Mr. Cicilline. Thank you, Madam Chairman. I believe you 
indicated that 41 percent of the current U.N. effort is funded, 
so that is a huge unmet need. And I wondered if each of you 
would share who you think, which countries do you think should 
be donating to meet the U.N. appeal and on. I think we should 
call them out and know that so we can use the influence 
hopefully that Congress has to help suggest to some of them 
they should be doing their part.
    Mr. Ray. I will just say I think many times several members 
of the committee have called out the nations in the region, and 
in fact certainly they could be doing more. We don't have 
definitive figures, but it looks like Kuwait has given 
something like 304 million, Qatar about 9\1/2\, Saudi Arabia 
about 18\1/2\, UAE somewhere in the neighborhood of 42\1/2\. 
But certainly those countries are capable of doing much more. 
That said, I think there is--every country is going to have to 
do more including the U.S.
    Mr. Cicilline. No, I recognize that and I am not suggesting 
we shouldn't, but it is helpful to know the countries that you 
believe have the capacity to do more that aren't, and I wonder 
if anyone has any other countries to add to that list.
    Mr. Bowers. The formal mechanism for how those appeals go 
out typically look at all the bilateral contributions. I think 
for the nations that Mr. Ray has talked about we have seen 
inconsistent pledges in that and I think we would be supportive 
of them being more consistent at higher levels, especially the 
richer Arab nations.
    We obviously are concerned about robbing one account for 
another. You have humanitarian needs in Yemen, Iraq, other 
places in the Arab world in particular that they have interest 
in. But I would think in addition to Mr. Ray's comments, we are 
looking for an international approach that deals with 
resettlement too. Resettlement is not cheap. It is over $1 
billion in the U.S. just for the current allotment. So I think 
we need to look at it comprehensively.
    Mr. Cicilline. Okay. I also understand that the U.N. does 
not currently run any refugee camps in Lebanon, and I wondered 
if you could tell me how is assistance getting to the refugees 
that are in Lebanon and what resources are in place to make 
sure that we are tracking them and ensuring that they are 
receiving services that they need while in Lebanon?
    Mr. Smith. It is true that there are no camps in Lebanon 
and that is a decision by the Lebanese Government. That is not 
a decision by the aid community, and so we work with the 
constraints that are put on us by the host governments. Most of 
the people that we would be dealing with obviously are then 
going into the host community into the urban environments. 
Informal camps are popping up. You will have people who are 
taking residence in abandoned buildings. They will be going in 
with families.
    We were talking recently with a sheikh from Lebanon who was 
telling us that in the early days of the crisis the Lebanese 
community really opened their arms to the Syrian population 
coming in. We are now into our fifth year. Things are starting 
to get strained. As it has been mentioned, a quarter of the 
population in Lebanon are Syrians, and so it becomes very 
difficult. As agencies we have experience working in these 
types of environments. We don't just work in camps. Matter of 
fact, in Jordan and in Turkey, most of the people who are in 
these countries as refugees are not in camps.
    So we have gained expertise in terms of working with non-
camp refugees. We know how to do the assessments. We know how 
to identify people. We know how to put mechanisms in place to 
track how we are doing. So it is something that we are skilled 
at, we just realize that that is the reality. Most people are 
not in camp environments and Lebanon is a classic example of 
that.
    Mr. Cicilline. Thank you. And Ms. Romero, I and 71 of my 
colleagues have called on the United States to accept an 
additional 100,000 refugees, a total of 200,000 refugees in 
total. And when you look at what is happening, particularly in 
Jordan and Lebanon where they are being asked to absorb just 
huge numbers of refugees, how would our going to that number 
impact the actual magnitude of the problem, and what impact is 
it likely to have on the willingness of other countries to 
accept refugees?
    Ms. Romero. Thanks. I mean, I think you would see more 
Syrians looking at this as an option. That would put pressure 
on other countries as well as on the conflict and on the 
humanitarian assistance.
    Ms. Ros-Lehtinen. Ms. Romero, I am going to stop you for a 
second just because we have a few more folks who want to ask 
questions.
    Ms. Romero. Okay.
    Ms. Ros-Lehtinen. And if we have enough time, Mr. 
Cicilline, we will get back to that.
    Ms. Romero. Right.
    Ms. Ros-Lehtinen. Your time is up. Mr. Meadows of North 
Carolina.
    Mr. Meadows. Thank you, Madam Chairman. Thank you for 
calling this hearing because it is the compassionate hearts of 
Americans that get lived out each and every day by some of your 
organizations. I know that my wife and I have contributed 
personally over some time to some of your organizations not 
knowing where the money went, just knowing that is was reaching 
out to a people group that perhaps we would never know or never 
see. So I just want to applaud each of you for your effort to 
meet the very basics of humanitarian relief. So I thank you.
    I am a little bit concerned, Mr. Ray and Mr. Smith, when we 
talked about free zones both of you got visibly nervous. And so 
Mr. Smith let me come to you because you said under a number of 
different circumstances they may work well. I need you to 
illuminate that a little bit mainly because the dialogue of 
additional negotiations whether it be at the U.N. or be with 
the United States leading those negotiations, there is not a 
lot of hope for the American people that that is going to be 
productive. We have seen a lot of negotiations already take 
place, and we as Americans want to believe that we can find 
that common ground. And yet at times it is extremely difficult 
especially within Syria where you have a number of different 
factions.
    So Mr. Smith, can you help me understand the path on those 
free zones that how can we make that work?
    Mr. Smith. So the right to protect has been discussed 
significantly within the humanitarian community. If we were to 
take a look at, we look at free zones, we look at the use of 
force to protect civilians as really a last resort. It is not 
kind of a first go-to, it is a last resort. We would need to go 
through a checklist of things that include clear and compelling 
need for immediate protection; trained and disciplined 
intervening forces are provided; have a clear mandate for 
civilian protection including a timetable specific for 
protection objectives; clear rules of engagement; establishing 
of a civil-military coordination mechanism where force is 
applied it is only applied for the protection of civilians.
    Mr. Meadows. Okay, let me stop you because I only have a 
limited time and we are about to have to adjourn. So with that 
long list have any of those steps been embarked upon at this 
point to create at least that framework to hit the first two or 
three?
    Mr. Smith. You really would be looking at needing a special 
calling of the U.N. Security Council to begin discussing this, 
and that has not happened.
    Mr. Ray. If I could just add very briefly, there was an 
excellent paper produced by InterAction in November of last 
year on safe zones that I would recommend to the committee as 
you explore these options.
    Mr. Meadows. All right. In the interest of time I will 
yield back, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Meadows.
    Ms. Frankel.
    Ms. Frankel. Thank you again. And Madam Chairman, thank you 
again for this hearing and to the panel for your time and your 
work. I just wanted to start off again by saying that to me 
this is probably the most horrific humanitarian crisis of our 
generation. And I think there is a lot of good debatable 
questions about military action and whether it would be helpful 
or not, but I do think there is no question about humanitarian 
assistance and I think that is an absolute, a must. Not only 
because it is morally the right thing to do, but we will pay 
the penalty. Our children will pay the penalty if we ignore 
this. Because to have people fleeing Syria, these refugees 
coming into now Europe, there is going to be economic 
consequences. And to have a generation of unhappy, 
disenfranchised young people, the world will pay the penalty 
for that.
    I have a couple of questions. Number one, are there any 
safe areas in Syria now and who control those areas? Number 
two, yesterday we heard testimony from folks who were saying 
that we should use more vouchers than give direct food aid. I 
would like to get your opinion on that. Three, I would like to 
know if you think the United Nations is doing enough. And 
number four, if you can get to number four, from what you see 
on the ground is there any indication that there are any 
peaceful, sane people who could fill the void of an Assad 
leaving? Those are my four questions. Somebody jump in.
    Ms. Romero. I don't think I can handle all four, but I will 
speak to the vouchers issue. I think that generally the use of 
food vouchers or the use of vouchers that can be used for a 
number of needs are preferable because they allow refugees to 
choose what they need and to use those for flexible purposes, 
so would support that.
    And in terms of the U.N.'s inaction or action there have 
been fits and starts. But at the end of the day, the U.N. 
starts with its member states, so yes, more could be done and 
more is needed and that requires more political will from the 
states that comprise it.
    Ms. Frankel. Just quickly, do all of you agree with the 
answer on the voucher issue? You do. Okay. Could someone answer 
the question on whether there is any place that you feel is 
safe now in Syria?
    Mr. Bowers. There is a desert. To be honest, not to be 
flippant. When you look at the map in terms of violence and 
activities of course you can see the contours of what ISIS 
maintains, what the Government of Syria maintains, and then 
sort of the areas in between, Free Syrian Army, other groups. 
So I would hesitate to say that--1 year you could say yes. 
Idlib was safe last year, not anymore, right. Two years or 
three years ago maybe it was Al-Raqqah, not anymore. So that is 
some of the difficulty in declaring safe zone issues. Until we 
go through a very thorough issue of how do you declare that 
truly safe through protective needs, no area in Syria is safe, 
frankly, from bombardment.
    Ms. Frankel. And would you say from what you are seeing on 
the ground, are all the different forces whether it is Assad, 
ISIL, al-Nusra, are they all equally terrible to the people?
    Mr. Ray. It is hard to rank them in a level of awfulness. 
Yes, thank you. But I would say that I have seen estimates that 
as high as 95 percent of the civilian deaths are actually being 
caused by the Syrian military itself and through the use of 
indiscriminate weapons such as barrel bombs.
    Mr. Smith. I might also add further to my colleagues' 
comments. The humanitarian space is shrinking. It was wider 
before, as Mr. Bowers said, and it is shrinking. And we were 
just talking to our Syrian staff this morning, and the comments 
with respect to the Russian strikes, it is now in the Idlib 
area. Where we are working we had to adjust a planned 
distribution yesterday because of the strikes. We are being 
told that civilians are being killed with respect to the 
strikes. One thing that was very disturbing was one of our 
staff reported that they came in and bombed, and then when 
people came to assist the injured they came in and bombed 
again.
    And so we are just seeing that the space that we have to 
work in is getting smaller. We were working in areas before 
that were considered safe to work in. ISIS moved in, we 
continued to work there for some time until security concerns 
did not allow us to remain there. So we have moved into non-
ISIS controlled areas, but now they are getting closer to that 
area as well. And so our space is shrinking.
    Mr. Ray. If I may just speak to the question about sane and 
peaceful people, briefly, I would say that one of the things 
that gives me hope in an otherwise pretty bleak situation are 
the people that we all work with in terms of our local partner 
organizations. There are people who are doing incredible work.
    Ms. Ros-Lehtinen. Thank you, Mr. Ray, and that gives us 
hope as well. Thank you. Mr. Higgins, you are our last question 
and answer.
    Mr. Higgins. Yes, when you talked about humanitarian 
protection, and within the middle of a brutal civil war it is 
kind of an elusive goal. I mean, you have acknowledged, all of 
you that you reach a very small percentage of the people who 
are actually in need. So in order to help solve the 
humanitarian crisis, I think we have got to stick with trying 
to solve the political crisis.
    We have got a situation in Syria where now you have got 
Bashar al-Assad who obviously is a bad guy, an Alawite that 
represents probably 12 to 14 percent of the population 
supported by Arab Christians and Kurds, not because they like 
what he is doing but they are afraid they will get slaughtered 
if the Sunni Arab majority takes over.
    Mr. Bowers, you had indicated that we have reached the 
tipping point. People aren't just leaving to flee the conflict, 
they ain't coming back. They have given up entirely on Syria. 
So who do you negotiate peace with? And then you have got 
Bashar al-Assad who probably have 1,000 militias. Their best 
fighter are Islamic extremists and al-Qaeda affiliates of the 
Islamic State that we made an attempt to train and arm the 
moderate militias, which we were going to vet and spent about 
$\1/2\ billion doing so, and we end up with three or four 
qualified fighters.
    I don't want to say that this is hopeless, but this seems 
hopeless, and it is extraordinary that you do the work that you 
do in these places. How do you stay protected and how do you--
obviously there is no light here, it is all dark. And the dark 
are interconnected pieces which add up to one big seemingly 
unsolvable problem.
    Mr. Ray, you were talking before time expired, and complete 
your thoughts about----
    Mr. Ray. Not a lot more to say about that other than to 
recognize the really selfless work of the local partner 
organizations that we work with on the ground inside Syria as 
well as the people who are working as volunteers and serving 
their own communities in Lebanon and Jordan and Egypt and 
Turkey where there are so many refugees. Those folks are going 
to be the future of Syria and the people who are going to put 
this all back together again when eventually there is some kind 
of political settlement.
    Mr. Higgins. What distinguishes them? I presume they are 
Syrian based non-governmental organizations.
    Mr. Ray. They are, and many of them actually registered in 
the U.S. and in Europe. But they have been organized by Syrians 
who recognize the need and who may not have the length and 
depth of experience of some of the international organizations, 
but who are eager to learn and eager to do the work well and 
who are eager to serve the folks in their communities who need 
their assistance.
    Mr. Higgins. When they talk about the political situation 
what do they say when they----
    Mr. Ray. I think they are aware of all the complexities 
that you just alluded to. It is a very difficult situation and 
they know it, but they also know that unless they continue to 
provide those kinds of humanitarian services that in fact there 
is no hope and that they have to continue to do that and we 
have to continue to assist them.
    Mr. Higgins. Okay.
    Mr. Smith. I was just going to say two things. When we talk 
about access, access in many of the hard to reach places are 
only through our Syrian partners. And so their role in this 
work is absolutely essential and crucial because we can't get 
there in many cases. So whatever we can do to ensure that we 
can work effectively with Syrian partners is something that we 
would encourage you as well. We do not need more roadblocks put 
in our way in terms of our work with Syrian partners.
    Mr. Higgins. Are the number of those Syrian partners 
increasing or decreasing?
    Mr. Smith. I would say that we are always looking for more 
Syrian partners just with the shrinking space. So we work with 
a number. All of us work with a number of Syrian partners in 
the region and their work is absolutely essential.
    Mr. Higgins. Thank you. My time is expired. I yield back.
    Mr. Ros-Lehtinen. Thank you so much. All of our 
subcommittee members want to thank you and your organizations 
for the great work that you are doing to bring assistance to 
those who need it so desperately in Syria and elsewhere, 
because your work is everywhere else as well. And we applaud 
you. We applaud your organizations. We will continue to seek 
ways to best support you. And with that the subcommittee is 
adjourned. Thank you.
    [Whereupon, at 12:03 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                   [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
